OIG Audit Report GR-30-98-001
U.S. DEPARTMENT OF JUSTICE
 
 Audit Report
 
AUDIT OF COMMUNITY POLICING SERVICES
GRANTS TO THE BALTIMORE COUNTY POLICE DEPARTMENT 
GRANT NUMBERS 95DLBX0053, 95CCWX0458 AND 95CLWX0031
GR-30-98-001
December 5, 1997
 

Executive Summary
 
The Office of the Inspector General, Audit Division, has completed an audit of three
grants awarded by the U.S. Department of Justice, Office of Community Oriented Policing
Services (COPS), to the Baltimore County Police Department (the County). The County
received grants of $1,725,000 to hire 23 officers under the Phase I program,
$8,250,000 to hire 110 officers under the Universal Hiring Program (UHP), and $156,847 to
redeploy officers and hire civilians under the COPS MORE program. The purpose of the
funded officers is to enhance community policing efforts.
Our audit determined that:

- Costs charged to the grants were generally in accordance with grant requirements.
  However, the County did not document the time spent in community policing activity by
  officers redeployed through the hiring of civilians under the MORE grant, thus $156,847 is
  considered unallocable to the grant.
- Budgeted funds for law enforcement services and the number of authorized positions
  increased from FY 1993 through FY 1998. Also, the Police Department filled
  officer vacancies timely.
- The County did not have a formal plan to retain the grant funded positions. Yet, the
  County intended to make every effort to retain the positions once grant funds expire.
- The County submitted to COPS: the Department Initial Report, the Officer Progress
  Reports for 1995 and 1996, and the Annual Department Report for 1995 and 1996.
- The County submitted 23 of 25 required Financial Status Reports, 22 of those on a
  timely basis. The County submitted Financial Status Reports that overreported total
  program costs for the UHP grant and underreported total program costs for the COPS MORE
  grant.
- The County enhanced its community policing efforts using funds provided under the
  Phase I and UHP grants. The County assigned 133 officers in field operations to four new
  community policing activities.
#####